                                                                             Report No. DODIG-2013-132




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 18, 2013




                 Appropriate Contracting Processes
                 Used to Satisfy Validated Marine Corps
                 Logistics Prepositioning Requirements




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                         Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                         September 18, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
			             TECHNOLOGY, AND LOGISTICS
		             NAVAL INSPECTOR GENERAL

SUBJECT: Appropriate Contracting Processes Used to Satisfy Validated Marine Corps
	        Logistics Prepositioning Requirements (Report No. DODIG-2013-132)

We are providing this report for your information and use. Our audit objective was to
determine whether Marine Corps officials used appropriate contracting processes to satisfy
mission requirements for prepositioning and logistics support in accordance with Federal and
DoD policies. Specifically, we determined whether mission requirements were validated by
the requiring activities and whether the U.S. Marine Corps Blount Island Command (BICmd)
contracting office used appropriate processes and procedures to award task orders to meet
mission requirements. Marine Corps Forces Central Command (MARCENT), Marine Corps
Logistics Command (MCLC), and BICmd officials used appropriate contracting processes
to satisfy validated FY 2013 mission requirements for prepositioning and logistics support
valued at approximately $73.3 million. We considered management comments on a discussion
draft of this report in preparing the final report.


Prepositioning Program and Marine Corps Logistics
Services Contract
The Secretary of Defense initiated the Maritime Prepositioning Ships program in 1979
to increase the responsiveness of Marine Corps operating forces requiring immediate
and rapid deployment.       Specifically, the purpose of the Maritime Prepositioning Ships
program was to preposition aboard Military Sealift Command ships sufficient combat
and sustainment equipment to support a 15,667 person Marine Expeditionary Force for
30 days. During the 1998 re-compete of the contract, the Deputy Commandant of the Marine
Corps for Installations and Logistics stated that the contract should contain provisions to
provide other logistics services to the Marine Corps. The contractor then provided in-theater,
operational-level logistics services that allowed Marine Corps operating forces to focus on
contingency operations.




                                                                                           DODIG-2013-132 │ 1
                 The BICmd contracting office awarded Prepositioning and Marine Corps Logistics
                 Services contract M67004-09-D-0020, valued at approximately $680 million, to
                 Honeywell Technology Solutions Incorporated on May 28, 2009. The contract was a
                 cost-plus-award-fee indefinite-delivery/indefinite-quantity contract that included a base
                 period of 2.5 months and nine 1-year options that end on September 30, 2018. BICmd
                 officials awarded the contract to provide the Marine Corps with logistics services at
                 the continental United States industrial facility, for shipboard maintenance and supply
                 support, for in-port areas around the world, and for operational logistics support to
                 deployed Marine Corps forces.


                 FY 2013 Task Orders
                 The contract included a statement of work for the base contract and a performance work
                 statement for each logistics services task order awarded on the contract. The contracting
                 office issued new task orders for FY 2013 after the contracting officer reviewed the
                 fiscal year’s requirements before exercising the contract option year. The contracting
                 officer awarded task orders 62, 66, and 67 on October 1, 2012, with a combined value of
                 approximately $73.3 million as of April 2013. We examined the three task orders.

                 Task order 62 provided logistics support for the Maritime Prepositioning Force. As an
                 essential element of the U.S. Military’s readiness strategy, task order 62 served as the
                 core effort for the contract. Under this task order, the contractor performed maintenance
                 and material management of the equipment loaded aboard the Military Sealift Command
                 ships at BICmd and performed limited equipment maintenance while the ships were at
                 sea.

                 Task order 66 provided logistics support for the Marine Corps ashore prepositioning
                 site in Kuwait. Under task order 66, the contractor developed and executed a process
                 to facilitate assumption of Marine Corps asset custody, supply chain management,
                 distribution management, fiscal responsibility, and maintenance and management of
                 Marine Expeditionary Unit Augmentation Program assets.

                 Task order 67 provided logistics support for the supply chain and maintenance services
                 in the MARCENT area of responsibility. Specifically, task order 67 required the contractor
                 to provide logistical services in support of principle end item rotation, management of
                 combat replacements and sustainment principle end item retrograde/redeployment, and
                 other program objectives at Camp Leatherneck, Afghanistan.




2 │ DODIG-2013-132
Responsible Organizations
BICmd officials planned, coordinated, and executed logistics efforts in support of the
Maritime Prepositioning Force. BICmd reported to the MCLC Commanding General. The
BICmd contracting office awarded, coordinated, and administered the Prepositioning
and Marine Corps Logistics Services contract and task orders. The BICmd program office
was the requiring activity for prepositioning services included in task orders 62 and 66.
MCLC was the requiring activity for task order 67. BICmd and MCLC officials worked
with MARCENT to implement logistics requirements for task orders 66 and 67.

MARCENT was responsible for all Marine Corps forces in the U.S. Central Command area of
responsibility. MARCENT was the requirements originator and customer for task orders
66 and 67. MARCENT identified and validated its requirements internally before BICmd
and MCLC program offices submitted a requirements package to the contracting office.




                                                                                        DODIG-2013-132 │ 3
                 Requirements Were Validated and
                 Contracting Actions Satisfied Mission Needs
                 MARCENT, MCLC, and BICmd officials used appropriate contracting processes to satisfy
                 validated FY 2013 mission requirements for prepositioning and logistics services in
                 accordance with Federal and DoD policies. Marine Corps officials:

                          •	 verified that requirements were valid,

                          •	 appropriately priced the task orders,

                          •	 obtained legal and contract reviews for acquisition strategies, and

                          •	 prepared business clearance memoranda before the issuance of task orders.

                 As a result, Marine Corps officials properly awarded task orders 62, 66, and 67, valued at
                 approximately $73.3 million.


                 Maritime Prepositioning Force Maintenance
                 Requirements Were Validated
                 Marine Corps officials completed the requirements validation process for the Maritime
                 Prepositioning Force maintenance services in accordance with Federal and DoD policies.
                 Federal Acquisition Regulation (FAR) Subpart 17.207, “Exercise of Options,” requires the
                 contracting officer to determine whether the requirements covered by the option fills
                 an existing Government need. Marine Corps Installation and Logistics; Marine Corps
                 Plans, Policies, and Operations; Military Sealift Command; Navy Facilities Engineering
                 Command; and BICmd officials validated the logistics requirements included in task
                 order 62 for the Maritime Prepositioning Force maintenance services. On July 18, 2012,
                 the BICmd contracting officer received a memorandum from the program office stating
                 that there was a continued need for the services included in task order 62. The BICmd
                 contracting officer subsequently issued a memorandum on July 24, 2012, notifying the
                 contractor that the BICmd contracting office intended to exercise option year four of
                 the contract.

                 The BICmd program office determined that the requirements were still valid based on
                 documentation provided from Headquarters, Marine Corps (HQMC) and the Department
                 of the Navy. Specifically, HQMC and the Department of the Navy issued Marine Corps
                 Warfighting Publication 3-32/Navy Tactics, Techniques, and Procedures 3-02.3M,
                 “Maritime Prepositioning Operations,” and Navy and Marine Corps Publication 2907,




4 │ DODIG-2013-132
“Prepositioning Objective for Maritime Prepositioning Force and Marine Corps
Prepositioning Program-Norway,” which outlined the specific assets required for the
prepositioning program, to include munitions, Marine Expeditionary Brigade assets,
Marine aviation support assets, and Navy support requirements. The list of required
assets included all goods the contractor was required to maintain in support of the
prepositioning program. For example, the Marine Corps required the contractor to repair
and maintain a specific number of mine-resistant ambush-protected vehicles that were
subsequently stored on each prepositioned ship.


Other Logistics Services Requirements Were Validated
Marine Corps officials validated other logistics services requirements in accordance with
FAR Subpart 16.505 and FAR Subpart 15.404. FAR Subpart 16.505, “Ordering,” requires
individual orders to clearly describe all services performed so the full cost or price can
be established when the order is placed. FAR Subpart 15.404, “Proposal Analysis,” states
the contracting officer is responsible for evaluating the reasonableness of the offered
prices to ensure that the final agreed-to price is fair and reasonable. FAR Subpart 15.404
further states that the contracting officer may request the advice and assistance of other
experts to ensure that an appropriate analysis is performed.

The requiring activity ensured requirements clearly described all services performed by
receiving validated requirements from HQMC prior to requesting other logistics services
from the BICmd contracting office. Specifically, for task orders 66 and 67, MARCENT and
MCLC sent equipment density list requirements to HQMC for approval, coordination,
and validation. The equipment density lists described the equipment needed and
served as the official requiring documents during the requirements validation process.
MCLC and BICmd program offices were involved in the requirements validation process
and MARCENT communicated effectively with the program offices to incorporate
the customer’s requirements into task orders 66 and 67, respectively. Program office
personnel submitted validated requirements packages to contracting office personnel
that documented the requiring activity’s request and started the contracting process to
issue the task order based on Marine Corps need.

Additionally, BICmd contracting office personnel provided contractor proposals to the
requiring activity for technical review and approval. The requiring activity revalidated
the requirements during the technical review process. For example, the BICmd contract
specialist received the contractor’s proposal for the Afghanistan Retrograde Team
program included in task order 67 on July 20, 2012. On July 23, 2012, MCLC, the requiring
activity, received the contractor’s proposal for task order 67 from the BICmd contract




                                                                                         DODIG-2013-132 │ 5
                 specialist for review. MCLC personnel performed a technical review and sent an e-mail
                 to the contract specialist on July 26, 2012, stating that the proposal was technically
                 acceptable. The BICmd contract specialist then prepared and finalized the Business
                 Clearance Memorandum (BCM) on August 13, 2012, and the BICmd contracting office
                 issued the task order on October 1, 2012.


                 Task Orders Were Appropriately Priced
                 The BICmd contracting officer obtained fair and reasonable prices for option year four
                 prepositioning and logistics services by performing adequate price analysis for the
                 services in accordance with FAR Subpart 15.404, “Proposal Analysis,” which states the
                 contracting officer is responsible for evaluating the reasonableness of the offered prices
                 to ensure that the final agreed-to price is fair and reasonable.

                 BICmd contracting office personnel conducted the price analysis for option year four
                 requirements and documented the results in the BCM signed for the basic contract.
                 The price analysis consisted of comparing proposed prices between the offerors, the
                 independent Government cost estimates, and a thorough analysis of pricing information
                 submitted by the offerors to include a comparison of the offeror’s proposed price per
                 direct labor hour as the majority of the logistics support effort was labor intensive.
                 BICmd contracting office personnel determined that the prices were adequate, fair, and
                 reasonable, and the contract file contained the appropriate documentation to exercise
                 option year four.


                 Acquisition Strategy Legal and Contract Reviews Were
                 Performed
                 The BICmd contracting office used the acquisition strategy to adequately satisfy the
                 requirements in FAR Subpart 7.105, “Contents of Written Acquisition Plans,” and Defense
                 Federal Acquisition Regulation Supplement Procedures, Guidance, and Information
                 207.105, “Contents of Written Acquisition Plans,” for the three task orders. The acquisition
                 strategy for task order 66 included a requirements review by the BICmd Director of
                 Logistics, a legal review from BICmd legal counsel, and an acquisition strategy review
                 from the contracting officer on August 23, 2012. The MCLC Chief of the Contracting
                 Office approved the acquisition strategy as the decision authority on August 23, 2012.

                 Additionally, the MCLC Director of the Contracts Department implemented a Contracts
                 Department Policy Statement requiring a contracts review committee to review
                 acquisition strategies and business clearances for sound business principles and




6 │ DODIG-2013-132
conformance with Federal, DoD, and Navy and Marine Corps regulations. The contract
review committee reviewed the acquisition strategy for task order 66 and provided
comments requesting additional information regarding why the contract specialist did
not complete a small-business coordination record form for all requirements issued
against the contract. The contract specialist appropriately addressed the committee’s
comments by explaining that the small business form was approved prior to the
issuance of the basic contract and as a result, was not required. Accordingly, the
BICmd contracting office implemented procedures to complete the acquisition strategy
in accordance with Federal, DoD, and internal regulations.


Business Clearance Memoranda Were Prepared
The BICmd contracting office satisfied Navy and Marine Corps Acquisition Guide
Subpart G5201.690, “Requirements to be met before entering into contracts,”
requirements by creating BCMs before the issuance of the three task orders. The contract
specialist for task order 66 stated that he began drafting the BCM once he determined
cost computations were adequate and once the BICmd Logistics Division completed the
technical review of the task order 66 proposal and determined it was adequate. Legal
counsel and the contracting officer reviewed the BCM before obtaining approval from
the MCLC Director of the Contracts Department.

In addition to legal counsel and contracting officer review, the MCLC contract review
committee reviewed the BCM for task order 66 to determine whether BICmd officials
followed proper contracting practices. The contract review committee identified minor
issues during the review of the BCM and the contract specialist promptly addressed
the committee’s recommendations. The contract review committee chairman and the
Director of the Contracts Department signed the contract review committee worksheet
for the BCM on September 26, 2012. The MCLC Director of the Contracts Department
signed the BCM on September 26, 2012, authorizing approval to award task order 66
to support the Kuwait Marine Expeditionary Unit Augmentation Program. Accordingly,
the BICmd contracting office took appropriate actions to complete the BCM in
accordance with Federal, DoD, and internal regulations.


Review of Internal Controls on Marine Corps
Prepositioning and Logistics Requirements
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
May  30,  2013, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating




                                                                                       DODIG-2013-132 │ 7
                 as intended and to evaluate the effectiveness of the controls. We determined that the
                 internal controls over the appropriate contracting processes used to satisfy mission
                 requirements for the Prepositioning and Marine Corps Logistics Services indefinite-
                 delivery/indefinite-quantity contract M67004-09-D-0020 were effective. We will provide
                 a copy of the report to the senior official(s) responsible for internal controls.


                 Scope and Methodology
                 We conducted this performance audit from February 2013 through September 2013 in
                 accordance with generally accepted government auditing standards. Those standards
                 require that we plan and perform the audit to obtain sufficient, appropriate evidence to
                 provide a reasonable basis for our findings and conclusions based on our audit objectives.
                 We believe that the evidence obtained provides a reasonable basis for our findings and
                 conclusions based on our audit objective.

                 We reviewed the Prepositioning and Marine Corps Logistics Services indefinite-delivery/
                 indefinite-quantity basic contract M67004-09-D-0020 awarded May 28, 2009, to
                 Honeywell, and three task orders issued in FY 2013. The selection of the three FY 2013
                 task orders to review was based on dollar value. We reviewed task orders 62, 66, and 67 to
                 determine whether Marine Corps officials used the appropriate contracting processes to
                 satisfy mission requirements in accordance with Federal and DoD policies. Additionally,
                 we reviewed the contracting file for the exercise of option year four to determine whether
                 the file contained the appropriate documentation to support the exercise of the option
                 year. We reviewed contract file documentation, including requirements documentation,
                 acquisition strategies, BCMs, determination and findings, market research, independent
                 Government cost estimates, and applicable Federal and DoD guidance.

                 We conducted a site visit at Blount Island Command, Jacksonville, Florida. We conducted
                 phone interviews with program office personnel at MCLC. Additionally, we interviewed
                 Military Sealift Command and BICmd program office and contracting office personnel.


                 Use of Computer-Processed Data
                 We did not use computer-processed data to perform this audit.


                 Prior Coverage
                 During the last 5 years, the Government Accountability Office (GAO) and the Department
                 of Defense Inspector General (DoD IG) issued three reports discussing DoD prepositioning
                 materiel and requirements. Unrestricted GAO reports can be accessed over the Internet



8 │ DODIG-2013-132
at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at http://www.
dodig.mil/pubs/index.cfm.


GAO
Report No. 12-916R, “Prepositioned Materiel and Equipment: DoD Would Benefit from
Developing Strategic Guidance and Improving Joint Oversight,” September 20, 2012


DoD IG
Report No. D-2010-066, “Oversight of the U.S. Air Forces Central War Reserve Materiel
Contract,” May 28, 2010

Report No. D-2009-108, “U.S. Air Forces Central War Reserve Materiel Contract,”
September 23, 2009

You can obtain information about the Department of Defense Office of Inspector General
from DoD Directive 5106.01, “Inspector General of the Department of Defense (IG DoD),”
April 20, 2012; DoD Instruction 7600.02, “Audit Policies,” April 27, 2007; and DoD
Instruction 7050.03, “Office of the Inspector General of the Department of Defense Access
to Records and Information,” March 22, 2013. Our website is www.dodig.mil.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905). If you desire, we will provide a formal briefing on the
results.




                                      Amy J. Frontz
                                      Principal Assistant Inspector General
                                       for Auditing




                                                                                        DODIG-2013-132 │ 9
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
